                                                       National Railroad Passenger Corporation
                                                       Office of Inspector General
                                                       10 G Street, N.E.
                                                       Washington, DC 20002




For Immediate Release – August 23, 2010

                           Amtrak Employee Charged With Theft

The Inspector General for Amtrak announced today that an investigation led by his office has
resulted in an indictment of an Amtrak employee for theft arising from misuse of a U.S. General
Services Administration (GSA) credit card. The credit card is paid for with monies of the United
States.

The indictment was returned by a Federal grand jury in Baltimore, Maryland on August 19,
2010. Ross Kelly, a resident of Baltimore, MD was arrested on August 20, 2010 and made his
initial appearance in the U.S. District Court for the District of Maryland.

The indictment alleges that from July 2009 through July 2010, the defendant, Ross Kelly, in the
District of Maryland and elsewhere did embezzle, steal, purloin and convert to his use and the
use of others money and things of value of the United States and other departments and agencies.
Kelly did conceal and retain with the intent to convert said money and things of value of the
United States to his use, gains and knowledge. The item said to have been embezzled, stolen,
purloined and converted and the value of said property exceeded $1,000 to wit; the defendant
used a credit card paid for by the GSA to fuel his personally owned vehicle on multiple
occasions thereby acquiring gas valued at a minimum of $2,000 in violation of United States
Criminal code 18 USC 641.

The Amtrak Office of Inspector General was the lead investigative agency on this case with
participation by the Amtrak Police Department and the GSA Office of the Inspector General.

The case is being prosecuted by Justin S. Herring, an Assistant United States Attorney with the
United States Attorney’s Office, District of Maryland.

Contact: Adrienne Rish
Tel: 202-906-4534
E-Mail: Adrienne.Rish@Amtrak.com

To learn more about the Amtrak Office of Inspector General visit www.amtrakoig.gov.
